STATEMENT OF SERVICE
Case No. 18A____
Case Title:

Larry Householder, et al. v. Ohio A. Philip Randolph Institute, et al.;

Type of Document:
Respondents’ Opposition to Application for Extension
Date documents were hand-delivered to the U.S Supreme Court:
May 29, 2019 by 4:30pm
Date documents were emailed to the Court and opposing counsel:
May 29, 2019 by 4:30pm
Documents will be filed electronically when the application number has been
assigned.
Name, addresses and email addresses of individual served:
Benjamin Michael Flowers
Counsel of Record Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
benjamin.flowers@ohioattorneygeneral.gov
/s/ T. Alora Thomas
T. Alora Thomas
Counsel of Record for Respondents
American Civil Liberties Union
Foundation, Inc.

